                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A11010002                                                                      Page 1 of 1




                   OIG conducted an inquiry into an allegation that a collaboratively submitted NSF
          proposal' containing copied text. During the inquiry we identified copied material in the NSF
          proposal and determined the PI was responsible for the copied text (Subject). 2 The Subject's
          response to our inquiry did not dispel the allegation, and we referred the matter to the Subject's
          institution for investigation.

                  The Universitl concluded, based on a preponderance of the evidence, that the Subject
          recklessly and knowingly committed plagiarism, deemed a significant departure from accepted
          practices, and took actions to protect the University's interests.
                 We adopted the University's findings. We concluded, based on a preponderance of the
          evidence, that the Subject knowingly committed plagiarism, deemed a significant departure from
          accepted practices, and recommended actions to be taken to protect the federal interest. The
          Deputy Director concurred with our recommendations.

                  The Subject appealed NSF's decision. The Director reviewed the appeal and upheld the
          original finding and actions.

                 This memo, the attached Report of Investigation, the Deputy Director's letter, and the
          Director's letter constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11 /02)
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




      OFFICE OF THE
        DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




        Re: Decision on Appeal of Research Misconduct Determination


Dear D r . -

  On July 16,2012, Dr. Cora Marrett, Deputy Director of the National Science Foundation
  ("NSF"), issued a Notice of Research Misconduct Determination to you. In this Notice, NSF: (1)
. required, until July 1, 2014, that you submit certifications in connection with any proposal or
  report you submit to NSF; (2) required, until July 1, 2014, that you submit assurances from your
  employer in connection with any proposal or report you submit to NSF; (3) mandated that you
  complete the University-mandated academic integrity course by July 1, 2013; and (4) prohibited
  you, until July 1, 2014, from serving as a reviewer, advisor, or consultant for NSF. On or about
  August 16, 2012, you filed a timely appeal ofNSF's decision. This letter constitutes NSF's
  decision on your appeal.

In your appeal, you contend that you did not intentionally or knowingly submit a proposal to
NSF containing plagiarized material. You assert that your bad health and computer problems
caused you to upload the wrong file into NSF's FastLane system. You indicate that you
withdrew your proposal immediately after you were informed by NSF that your proposal
contained plagiarized material in an effort to take responsibility for your mistake. In addition,
you note that you have never taken formal training on how to write proposals for funding
agencies, but suggest that you have learned from this experience about the proper manner to
prepare proposals for submission.

NSF has determined that your appeal should be denied. As the Principal Investigator, you had a
responsibiliW to ensure that the proposal submitted to NSF was free of plagiarized material.
Your actions in this matter deprived the author of the source material from receiving the credit to
which he was entitled. Thus, a finding of plagiarism is appropriate. Moreover, based on your ·
extensive experience in publishing papers and serving as an editor, you had a working
                                                                                              Page2
knowledge of plagiarism, and therefore knew (or should have known) that copying text without
appropriate citation in the research proposal that you submitted to NSF constituted plagiarism.

This is NSF's final administrative action in this case. If you have any questions about the
foregoing, please call Lawrence Rudolph, General Counsel, at (703) 292-8060.



                                                     Sincerely,



                                                     Subra Suresh
                                                     Director
                                  NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230




                                      JUL 1 6 2012
    OFFICE OF THE
   DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re:     Notice of Research Misconduct Determination


Dear D r . -
        In 2010, you served as a Principal Investigator ("PI") on a orcmo,sal
to the National Science Foundation ("NSF")

                As documented in the attached Investigative Report prepared by NSF's Office
oflnspector General ("OIG"), this proposal contained plagiarized material.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF . .. "45 CFR § 689.l(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.1(a)(3). A finding ofresearch misconduct
requires that:

       ( 1) There be a significant departure from accepted practices of the relevant research
            community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

        Your proposal contained 78 unique lines of text copied from nine source documents, as
well as 25 embedded references. By submitting a proposal to NSF that copied the ideas or words
of another without adequate attribution, as described in the OIG Investigative Report, you
                                                                                              Page 2
misrepresented someone else's work as your own. Your conduct unquestionably constitutes
plagiarism. I therefore conclude that your actions meet the definition. of "research misconduct"
set forth in NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CPR§ 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence~ your plagiarism was committed knowingly and constituted a significant departure from
accepted practices of the relevant research community. I am, therefore, issuing a finding of
research misconduct against you.

        NSF's regulations establish three categories of actions (Group I, II, and III) that can be
taken in response to a finding of misconduct. 45 CPR§ 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CPR§ 689.3(a)(l).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CPR§ 689.3(a)(2). Group III actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CPR§ 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, and our determination that it was committed
knowingly. I have also considered the fact that your misconduct was part of a pattern of
plagiarism. In addition, I have considered other relevant circumstances. 45 CPR§ 689.3(b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

        (1) Until July 1, 2014, you must provide certifications to the OIG that any proposal or
            report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified , or
            fabricated material;

        (2) Until July 1, 2014, you must obtain, and provide to the OIG, assurances from a
            responsible official of your employer that any proposal or report you submit to NSF as
            a PI or co-PI does not contain plagiarized, falsified, or fabricated material;

        (3) By July 1, 2013, you must attend the University-mandated academic integrity course,
            and provide written proof to the OIG that you have completed such a course; and

        (4) Until July 1, 2014, you are prohibited from serving as a reviewer, advisor, or
            consultant for NSF.
                                                                                           Page 3
        The certifications, assurances, and written proof of attendance should be submitted in
writing to NSF's OIG, Associate Inspector General for Investigations, 4201 Wilson Boulevard,
Arlington, Virginia 22230.


Procedures Governing Appeals
       Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
ofthis decision, in writing, to the Director ofthe Foundation. 45 CFR § 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become final.

       For your information, we are attaching a       of the applicable regulations. If you have
any questions about the foregoing, please call              Assistant General Counsel, at (703)
292-8060.



                                                    Sincerely,




                                                    Cora B. Marrett
                                                    Deputy Director




Enclosures
- Investigative Report
- 45 C.F.R. Part 689
CONFIDENTIAL
                                                                                             CONFIDENTIAL




           National Science.Foundation
           Office of Inspector General




                        Confidential
                   Report of Investigation
                  Case Number A11010002
                                         March 1, 2012
                           .·   ·~   .                                                    '. : ',

  .   -.         ·. This Onifide~tial Report ofinvestigati6n is provided to you
                     -     ' --~ 'FOR OFFICIAL USEONLY. - .·                       .
>It c~~tains protected p~r~~n:al inforffi~tioxi.: the llha~thorizecl disdosute of whi~h may result_in .
  pers~mil crimirialliapilhy Uhder the fiivacy Act, 5l.i.S.C. § 552a. This report may be further
: disclosed . within NSF . orliy to individuals 'Yho must have .!mowledge·          ofJ.ts- contents , to -
 -facilitate .·NSF's ~sessinent and resolution of this matter. thiS report'• may be . disclosed
 ·oti~ide NSF only under the Freedom' of Inf~miation and Privacy -Acts, 5 U.s.c: §§ 552 &
. 552a::Pleasetake appr()priate precautionsharidling this con.fid.entiru report of investigation.

                                                                                    NSF OIG Form 22b (12/10)
CONFIDENTIAL
                                                                                  CONFIDENTIAL


                                    Executive Summary
Allegation:     Plagiarism.

OIG Inquiry:    OIG identified 9 sources from which approximately 78lines and 25 embedded
                references were copied into 1 NSF proposal. OIG referred investigation of the
                matter to Subject's home institution.

University
Investigation
and Action:     The University concluded, based on a preponderance of the evidence, that
                Subject recklessly and knowingly committed plagiarism, deemed a departure
                from accepted practices.

                The University reduced Subject's salary by one-ninth; prohibited him from
                applying or receiving a university-level grant for one year; required he take an
                academic integrity course; and required he develop resource material related
                to academic integrity.


OIG
Assessment:
                •   The Act: Subject plagiarized 78lines and 25 embedded references from 9
                    sources into 1 NSF proposal.
                •   Intent: Subject acted knowingly.
                •   Standard of Proof: A preponderance of evidence supports the conclusion
                    that Subject committed plagiarism.
                •   Significant Departure: Subject's plagiarism represents a significant
                    departure from accepted practices.
                •   Pattern: Plagiarism was identified in 9 non-NSF proposals.

OIG
Recommends:
                •   Make a finding of research misconduct against Subject
                •   Send Subject a letter of reprimand.
                •   Require certifications from Subject for a period of 2 years.
                •   Require assurances from Subject for a period of 2 years.
                •   Require proof of completion of the University-mandated academic
                    integrity course within 1 year.
                •   Bar Subject from participating as a reviewer, advisor, or consultant for
                    NSF for 2 years.




                                              1
CONFIDENTIAL                                                                               CONFIDENTIAL


                                             OIG's Inquiry

       OIG conducted an inquiry into an allegation of plagiarism within a collaboratively-
submitted NSF proposal (Proposal). 1 We reviewed the Proposal and identified 90 lines and 25
embedded references copied from nine sources? We contacted the two Pis, PII (Subject) 3 and ·
    4
PI2, about the allegation. 5

        PI2 responded6 that he "did not write the text of this joint proposal" but had "agreed to be
                         7
listed as a subcontract." He said, at the last minute, the decision was made to submit the
proposal collaboratively, and he did not get to read the final proposal. 8

       The Subject, in his responses, 9 said he would immediately withdraw the proposal, and
explained the copied text was due to his writing style, computer problems, and physical illness.
He said:

                  . . . some material form [sic] the published work was kept on the
                  initial draft so that it facilitated what was required to be expressed
                  in a proper manner. This is the writing style followed by one of us
                  [Subject] and hence one can observe those materials appearing in
                  this unedited version of submitted proposal.

                  But at the time of proposal submission, the folders of saved
                  electronic files related to proposal were messed up. The files from
                  the folder containing non finalized version of electronic files were
                  uploaded absentmindedly ... . Also, there was attack of computer
                  virus/worm (at [the Subject's] work place) just a couple of days
                  before submission and that also caused severe nuisance and
                  hindrance for keeping proper track of electronic files. Also [the
                  Subject] was down with influenza fever at that time. Surely,
                  because of these disturbances the mistake had occurred. 10

Further, he said the copied text our office identified was all in the literature review, was
technically constrained, and/or was altered slightly from its original text. 11 He concluded:




5
  Tab 3.
6
  Tab 4.
7
  Tab 4, PI2 response, pg 1.
8
  Tab 4, PI2 response, pg 2.
9
  Tab 4, Subject responses.
10
   Tab 4, Feb 24 Subject response, pg 4.
11
   Tab 4, Feb 24 Subject response.


                                                    2
    CONFIDENTIAL                                                                               CONFIDENTIAL


                      We strongly believe this is not research misconduct on our part
                      knowingly. This all has happened due to human error
                      unknowingly and put us in conditions which apparently give the
                      impression of research misconduct. The only assurance we can
                      give you is that we will take much more precautions in future
                      before submitting any such proposal anywhere. This is what we
                      sincerely feel in view of what has happened unknowingly. 12

             When requested to clarify his collaboration with PI2, the Subject said PI2 "motivated me
    to write this proposal" but that he (Subject) had "prepared some rough draft with the help of the         j,_
                13
    literature." The Subject said, "We then improved on the drafts after drafts by each others [sic]
    consultation and discussions/suggestions. The typing work was done by me for the proposal and
    it is from my computer all the problems occurred at the time of submission ... " 14

           We reviewed the responses and determined 12lines of text contained technically
    constrained language. We removed these lines from further analysis. 15 The following chart
    summarizes the copied material in the Proposal:

                                Source                         Proposal
                       A (article)                                                  10 lines
                       B (article)             ;        18 lines and 25 embedded references
                       C (article)                                                  15 lines
                       D (article)                                                 4.5 lines
                       E (article)                                                   5 lines
                       F (article)                                                 8.5 lines
                       G (article)                                                   5 lines
                       H (article) ·                                                 ?lines
                       I (article)                                                   5 lines
                       Total                          78 lines and 25 embedded references



             We reviewed the Subject's and PI2's proposal submission records. While the Proposal
    was the Subject's first NSF proposal, PI2 had submitted 67 NSF proposals. We examined
    three 16 ofPI2's pro.posals and found no copying without attribution.

            In his response, the Subject took primary responsibility for the copied text. Despite
    claiming to have a properly cited final version of the Proposal, the Subject did not provide it to
    us. Last, although the Subject used 'we' in his responses to our office, he appears to be speaking


    12
.      Tab 4, Feb 24 Subject response, pg 1.



16-
    13
       Tab 4, Mar 1 Subject response, pg 1.
    14
       Tab 4, Mar 1 Subject response.
    15
       Tab 5 contains the re-annotated




                                                      3
CONFIDENTIAL                                                                             CONFIDENTIAL



only for himself as his response contradicts that of PI2. Based on our inquiry, we concluded there
was sufficient evidence to proceed to an investigation.


                                    University Inquiry and Investigation

        Consistent with our policy, we referred the investigation to the UniversityY The
University, consistent with its policies, 18 convened a committee, which conducted an inquiry.
The inquiry committee "concluded there was sufficient evidence to proceed with a formal
investigation. " 19

        The University then convened an Investigation Committee (Committee). The Committee
interviewed the Subject and PI2, and gathered and reviewed evidence. The Committee produced
a Report, which it provided to our office with attachrnents. 20

       During his interview, the Subject told the Committee that unlike his usual technique of
reading the literature, summarizing the content on note cards, and then putting the summarized
version into his proposal,

                  He was concerned that reading and summarizing the passages on
                  note cards would take too much time; so in this case, he copied the
                  information directly into a draft which he planned to summarize
                  prior to submission. He stated that this was the first time he used
                  this strategy. 21

The Subject said that, subsequently, "A computer virus and his own illness resulted in his
submitting this draft with the copied passages rather than the alternate proposal where he had
summarized and cited the work."22

        The Subject provided the Committee with a copy of what he claimed was the fmalized
proposal/3 but the Committee ''was unable to deteimine, with confidence, whether the alternate
proposal had been created before or after the proposal submission date. " 24 The Committee found
"that the alternate proposal did not contain unattributed verbatim copied passages." 25 However,
the Committee also found

                  that the alternate proposal did not contain any editorial changes in
                  the body of the proposal except for the areas where copying was


17
18• • • • • • • • •
   Tab 7, Attachment l.       Tab 6 contains the referral letter.
19
   Tab 7, Attachment 2, pg 1.
20
   Tab 7.
21
   Tab 7, Attachment 4, pg 4-5.
22
   Tab 7, Letter, pg 3.
23
   Tab 7, Attachment 7.
24
   Tab 7, Letter, pg 3.
25
   Tab 7, Letter, pg 3.


                                                            4
                                                          •   I




    CONFIDENTIAL                                                                                       CONFIDENTIAL


                      originally noted by NSF. The editorial changes consisted of
                      rewording the relevant portions of the original proposal. 26 ·

    The Committee told the Subject "it was unusual that only those sections and no others were
    revised." 27 The Subject said he had as many as six versions ofthe proposal and "that he had
    other versions that evolved from the one that was submitted that would have had other
    changes." 28 However, he "was not able to explain why the changed paragraphs were only those
    flagged by NSF."29

            The Subject told the Committee "he did not know the American definition" of plagiarism
    but that "His own definition was that you do not use the same language to the extent possible and
    that you cite the references for the work of others." 30 He said "he uses the same [citation]
    standard for publications as for proposals."31

            The Committee told the Subject it had found plagiarism in two other documents32 he
                                                                  34
    wrote and submitted,33 one internal and one external proposal. The Subject "said that he
    'didn't know' about the copying in the two proposals. " 3 Regarding the external proposal, he .
    said "the works were cited even though much was copied"36 and that "an author can replicate an
    entire para§!;aph word-for-word written by someone else while he is composing his own
    summary." 7 With regard to the internal proposal, he said it did not have clear citation
    guidelines. 38 The Subject did however acknowledge "that he was using the 'note taking method'
    with the other proposals." 39

            The Committee concluded, based on the preponderance of evidence, that the Subject
                                                        40
    recklessly and knowingly committed plagiarism, deemed a significant departure from accepted
    practices. 41 It also "concluded that [PI2] was not aware of the copied passages and had not
    contributed significantly to the drafting of text for proposal [sic]."42




    26
       Tab 7, Letter, pg 3.
    27
       Tab 7, Attachment 4, pg 6.
    28
       Tab 7, Attachment 4, pg 6.
    29
·      Tab 7, Attachment 4, pg 6.
    30
       Tab 7, Attachment 4, pg 6.
    31
       Tab 7, Attachment 4, pg 5.              .
    32
       The Committee subsequently identified plagiarism in a total of nine proposals; however, at the time of the
    interview, only two proposals had been identified.
    33
       Tab 7, Attachment 4, pg 5.
    34
       The proposal was submitted to the                                                     The University subsequently
    informed that organization a)Jout the plagiarism.
    35
       Tab 7, Attachment 4, pg 5.
    36
       Our review of the external proposal found that some of the sources were not in fact cited in the proposal.
    37
       Tab 7, Attachment 4, pg 5.
    38
       Tab 7, Attachment 4, pg 5.
    39
       Tab 7, Attachment 4, pg 5.       .
    40
       The Committee used four definitions of plagiarism in its analysis (Tab 7, Letter, pg 4).
    41
       Tab 7, pg 4.
    42
       Tab 7, pg 3.


                                                                  5
    CONFIDENTIAL                                                                          CONFIDENTIAL


                                                                                                    43
             The Committee based its determination of intent on "four primary pieces of evidence."
    First, it said "[The Subject] used copied text without citing the references from which the text
    was taken." 44 Second, it found the Subject's "withdrawal of his proposal when alerted about the .
    copying without submitting the alternate f.roposal" as verifying "that [the Subject] knew that the
    submitted proposal was inappropriate." 4 Third, it found "[The Subject] clearly held a different
    standard of writing and citation for publications in contrast to research proposals" which
    indicated he "knew that he was copying text without appropriate citation in the research
    proposals and knew that he was not copying text without appropriate citation in his
    publications."46 Last, based on the Subject's four years experience as a science editor, it
    determined the Subject "would have a working knowledge of plagiarism and therefore would
    know that cogying text without appropriate citation in the research proposals he submitted was
    plagiarism."

           The Committee found the Subject's action constituted a significant departure from
    accepted practices, because "the process [the Subject] used to write proposals deviates from the
    standard practices used to write such proposals by scientists in the natural sciences."48 For
    example, PI2, during his interview "said that he (referring to himself) would not have written the
    proposal in this way." 49

            The Committee identified "a clear and ongoing pattern of plagiarism in internal and
    external grant proposals that did not extend to ~ublications" 50 based on its review of 10 papers
    the Subject published between 2004 and 2010 5 and nine grant proposals the Subject submitted
    from 2009-2011. 52 It found "a pattern of copying text without approEriate citation" in each
    proposal, but found no pattern of copying in any of the publications. 3 Because the publications
    did not contain plagiarism, the Committee concluded the PI's actions did not have a significant
    impact on the research record, research subjects, other researchers, institutions, or the public
    welfare. 54                       .


           Lastly, the Committee said the Subject "reported that he did not receive Responsible
    Conduct of Research [RCR] training beyond mentoring as a PhD candidate and post-doctoral
    candidate." While RCR training is currently required of all University undergraduate, graduate
    students, and post docs who are paid from an NSF grant, the Subject "did not fall under the
    student/employee categories currently identified in the policy." 55 The Subject did however sign



    43
       Tab 7, pg 5.
    44
       Tab 7, Letter, pg 5.
    45
       Tab 7, Letter, pg 5.
    46
       Tab 7, Letter, pg 5.
    47
       Tab 7, Letter, pg 5.
    48
       Tab 7, Letter, pg 4.
    49
       Tab 7, Letter, pg 4.
    50
       Tab 7, Letter, pg 5.
    51
       Tab 7, Attachment 5.
    52
       Tab 7, Attachment 6.
    53
       Tab 7, Letter, pg 2.
    54
       Tab 7, Letter, pg 5-6.
    55
·      Tab 7, Letter, pg 6. Attachment 9 contains the University's RCR training policy.


                                                             6
CONFIDENTIAL                                                                                  CONFIDENTIAL


a University proposal submission form stating ''that he accepted responsibility for adhering to all
University policies and procedures."56

       The Committee recommended the Report be sent to the cognizant University official 57 to
determine administrative actions against the Subject. It also recommended a "discussion of a
process for checking potential plagiarism in the internal grant competitions hosted by the
University in order to provide correction and guidance to investigators who plagiarize" 58 as well
as "developing more comprehensive RCR seminars or development workshops." 59


                              Subject's Response to University's Draft Report

        The Committee provided its draft Report and attachments to the Subject. 60 In his
response, the Subject said "I have no formal training or educations [sic] regarding what are the
issues involved with so called plagiarism in writing internal grant proposals or any other
proposals." 61

       Regarding the internal grant proposals, he said they "never stated clearly that there is a
need of citation of references," attributing the copied text to the "lack of proper information
available (lack of education because I have never been told) at that time." 62 He further noted that
some of the internal grant proposals the Committee reviewed are nearly identical, since he often
resubmitted declined proposals with only minor changes, "hence they became 8 in number in
two years time but in fact they are just half that number to be specific." 63

       Regarding the external proposal, the Subject said he "cited. all the references needed
wherever material has been used from those references in the discussion. " 64 He added that the
proposal "was my first ever proposal for external grant and I tried to do my best within my
understanding. " 65                                   .


           The Subject concluded:

                    In future, while writing any project proposal I will be extremely
                    careful to write everything according to guidelines provided and
                    will request my peers/seniors to advise me to write that properly. I
                    have never done anything incorrect knowingly in these write ups
                    and just to make sure would not allow that to happen in future. 06

56
     Tab 7, Letter, pg 6. Attachment 8 contains the University' s proposal submission form.


57~·-·············
58
59
60
   Tab 7, Letter, pg 6.
   Tab 7, Letter, pg 6.
   Tab 7, Letter, pg 7.
61
   Tab 7, Attachment 10, pg 1.
62
   Tab 7, Attachment 10, pg 1.
63
   Tab 7, Attachment 10, pg l.
64
   Tab 7, Attachment 10, pg 2.
65
   Tab 7, Attachment 10, pg 2.
66
   Tab 7, Attachment 10, pg 2.


                                                            7
 CONFIDENTIAL                                                                            CONFIDENTIAL




         The Committee's fmal report addressed the Subject's response. It said it "verified that
guidelines for internal proposals instruct authors to cite references," and said "annual seminars
are offered that instruct authors on how to write better proposals." 67 It further said the University
provides clear definitions of plagiarism for both students and faculty in print documents and
online. 68

                                          University Adjudication

            The University official imposed the following actions:

                 •   Reduced the Subject's 2011-2012 salary by one month's salary;
                 •   Prohibited the Subject from applying for and receiving a university-level grant for
                     one year;
                 •   Required the Subject to participate in a workshop or seminar about academic
                     integrity; and
                •    Required the Subject to cooperate with the sponsored research office in
                     developing resource materials related to academic integrity. 69

A University adrninistrator70 told us that changes in internal procedures "will take considerable
time to discuss and implement, since faculty governance is an important consideration."71 The
UDJversity therefore could not yet provide us with information regarding the recommended RCR
seminars or plagiarism reviews.


                                              OIG's Assessment

       OIG invited the Subject to provide any additional comments he might have regarding the
University's report. 72 The Subject chose not to provide a response.                  .

        OIG assessed the Report for accuracy and completeness, and found the Report to be both
accurate and complete. We further conclude the University followed reasonable procedures in
conducting its investigation. We adopted the University's findings in lieu of conducting our own
investigation.

       A fmding of research misconduct by NSF requires (1) there be a significant departure
from accepted practices of the relevant research community, (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a
preponderance of the evidence. 73                .



67
     Tab 7, Letter, pg 7.
68




70···················
     Tab 7, Letter, pg 7.
69
     Tab 8.
71
     Tab 9.
72
     Tab 10.
73
     45 C.F.R. §689.2(c).


                                                      8
CONFIDENTIAL                                                                       CONFIDENTIAL




                                            The Acts

        Our review found the Subject plagiarized 78 lines and 25 references into the Proposal.
OIG concurs with the Report that the Subject's actions constitute plagiarism. In offering a
significant amount of material composed by others as his own, the Subject seriously
misrepresented his own efforts and presented reviewers with an incorrect measure of his abilities.
He blamed the plagiarism that he had himself committed on outside factors and failed to take
responsibility for his actions. Additionally, the Subject acknowledged that he, and not PI2, was
responsible for the copied text.

        Further, the Subject appears to have presented less than candid information both to our
office and the investigation Committee. First, although the PI claimed he submitted a non-
finalized version of the Proposal, the Subject first provided this "finalized" copy to the
Committee during its investigation, and the "fmalized" copy provided was undated and
contained change only in the portions our office had annotated. Second, the Subject used 'we' in
his responses to our office, when there was no indication that PI2 had seen or was aware of the
Subject's response. Indeed, the Subject's response contradicted that ofPI2. Last, the Subject
told the Committee that the first time he used the cut-and-paste note taking method was Proposal
1, when in fact he later acknowledged he used this same strategy in other proposals. 74 Overall,
we found the Subject to be less than candid in offering excuses throughout the inquiry and
investigation stage as to why he was able to properly attribute the writing of others in numerous
publications, but failed to do so in nine proposals.

        The Report found the Subject's acts constituted a significant departure from accepted
practices. We concur with the University's assessment.



        The Report concluded that the Subject acted recklessly and knowingly in plagiarizing
material in the Proposal. The Committee based its determination on the aforementioned "four
primary pieces of evidence." 75 We concur with the assessment that the Subject's actions were
knowing. Specifically, we agree that the Subject's oWn statements in acknowledging
inadequately cited material, his own actions in withdrawing the Proposal without offering the
fmalized proposal, his pattern of plagiarizing within proposals but not within published papers,
and his professional experiences clearly indicate the Subject acted knowingly.

                                        Standard o[Proo[

       OIG concludes that the Subject's actions and intent were proven based on a
preponderance of the evidence.




74
     Tab 7, Attachment 4, pg 4-5.
75
     Tab 7, pg 5.


                                                9
CONFIDENTIAL                                                                        CONFIDENTIAL


      OIG concludes that the Subject, by a preponderance of the evidence, recklessly and
knowingly plagiarized, thereby committing an act of research misconduct. 76 .

                               OIG's Recommended Disposition

       When deciding what appropriate action to take upon a fmding of misconduct, NSF must
consider:
              (1) How serious the misconduct was; (2) The degree to which the
            . misconduct was knowing, intentional, or reckless; (3) Whether it
              was an isolated event or part of a pattern; (4) Whether it had a
              significant impact on the research record, research subjects, other
              researchers, institutions or the public welfare; and (5) Other
              relevant circumstances. 77

                                           Seriousness

       The Subject's actions are a serious violation of the standards of scholarship, the tenets of
general research ethics, and the very spirit of academic integrity. Copied text serves to
misrepresent one's body of knowledge, presenting reviewers with an inaccurate representation of
a proposal's respective merit. Further, by copying the text within a proposal submitted
collaboratively, the Subject potentially affected the career of a colleague. Additionally, less than
candid statements compound the act by calling his very integrity into question.

                              Degree to which Action was Knowing

        As explained above, OIG finds that the Subject acted knowingly. The cut-and-paste note
taking method the Subject himself acknowledged using in the proposal is itself an indication of a
reckless writing process. The investigation found that, despite his assertions, he had before used
this same method when writing proposals. However, he seemingly knew not to use this method
when writing papers for publication. That act, as well as the others described above, indicates he
knew correct citation practices, as indicated in multiple publications. We therefore conclude that
his actions were knowing.

                                              Pattern

   .    As previously mentioned, the Committee identified "a clear and ongoing pattern of
plagiarism in internal and external grant proposals that did not extend to publications." 78 We
concur with the University's assessment and agree that a pattern of plagiarism was identified in
these non-NSF proposals.




76
   45 C.P.R. part 689.
77
   45 C.P.R. § 689.3(b).
78
   Tab 7, Letter, pg 5.


                                                 10
CONFIDENTIAL                                                                                           CONFIDENTIAL


                                                Aggravating Factor

        Based on the extent of plagiarism found, we generally recommend a shorter period for
actions against subjects. However, in this case, we find the plagiarism itself exacerbated by the
Subject's lack of candor and his attempts to mislead both the University and NSF .


                                                . Recommendation

Based on the evidence, OIG recommends NSF:

                •   send a letter of reprimand to the Subject informing him that NSF has made a
                    fmding of research misconduct;79

               •    require the Subject to certify to OIG's Assistant Inspector General for
                    Investigations (AlGI) that proposals or reports he submits to NSF do not contain
                    plagiarized material for 2 years; 80

               •    require that the Subject submit assurances by a responsible official of his
                    employer to OIG's AlGI, that proposals or reports submitted by the Subject to
                    NSF do not contain plagiarized material for 2 years; 81 and

                •   require the Subject to provide to OIG proof upon completion of the academic
                    integrity course his University mandated, within 1 year. 82

                •   Bar the PI from serving as a reviewer, advisor, or consultant for NSF for 2
                    years. 83




79
     A letter of reprimand is a Group I action (45 C.F.R. §689.3(a)(1Xi)).
8
 °Certification by an individual is a final action that is comparable to the final actions listed in 45 C.F.R.
81
                                                                                                              §689.3(a).
   Requirement for assurances is a Group I action (45 C.F.R. §689.3(a)(l)(iii)).
82
   Completing an ethics course is a final action that is comparable to the final actions listed in 45 C.F.R. §689.3(a).
83
   A Group ill action 45 C.F.R. 689.3(a)(3)(ii).


                                                            11
